APPENbTX _A

Case 2:16-cv-01786-MPK Document 80 Filed 01/16/20 Page 1 of 9

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF PENNSYLVANIA
BIENVENIDO RODRIGUEZ,
Plaintiff,
v.
REV ULLIKLEMM, LIEUTENANT
BOONE, EDWARD NIEDERHAUSER, and
REV KIRT ANDERSON,
Defendants.

)
)
)
)
)
)
)

Civil Action No. 16-1786
/
/

Magistrate Judge Maureen P. Kelly
Re: ECF Nos. 73, 74 and 75

)
)
)
)

MEMORANDUM ORDER
Presently before the Court is Plaintiffs Motion for Relief ;from Judgment, Order or
Proceeding (“Motion for Relief’), ECF No. 73; Plaintiffs Motion for Extension of Time to File
Brief in Support of Motion for Relief from Judgment, Order or Proceeding (“Motion for
Extension”), ECF No. 74; and Plaintiffs Motion to Stay to File Brief in Support of Motion for
Relief from a Judgment, Order or Proceeding (“Motion to Stay”), ECF No. 75. For the reasons
that follow, the motions are denied.
I.

FACTUAL AND PROCEDURAL BACKGROUND
Plaintiff Bienvenido Rodriguez (“Plaintiff’) is currently incarcerated at the State

Correctional Institution at Forest (“SCI Forest”). This action arises from Plaintiff s incarceration
at State Correctional Institution Pine Grove (“SCI Pine Grove”). Plaintiffs claims arise out of
allegations that Defendants, employees of the Pennsylvania Department of Corrections (“DOC”),
violated Plaintiffs First Amendment rights and the Religious Land Use and Institutionalized
Persons Act (“RLUIPA”) by failing to make religious accommodations for the practice of

Case 2:16-cv-0l786-MPK Document 80 Filed 01/16/20 Page 2 of 9

Plaintiff’s religion, Yoruba Santeria, and by improperly confiscating consecrated prayer beads
that Plaintiff wore in connection with his faith.
Plaintiff, represented by Attorneys Christy Foreman and Alexandra Morgan-Kurtz, filed
his Complaint in this action on November 28, 2016. ECF No. 1. The Court conducted an initial
case management conference, ECF No. 15, and the case was referred to the alternative dispute
resolution in the form of mediation, ECF No. 17.

The Honorable Kenneth Benson (ret.)

conducted the mediation on April 14, 2017, and Plaintiff attended in person. ECF Nos. 20 and
21. At the conclusion of the mediation, the case was resolved. ECF No. 21.
Although there was some initial dispute over the language of the settlement agreement
and release, ECF Nos. 24, 25, 28 and 29, that required the assistance of this Court, ECF Nos. 30
and 32, the settlement agreement and release was executed by the parties in May 2018./ ECF No.
33. The settlement agreement and release provided that a check in the amount of $6,500.00 was
to be deposited in Plaintiff’s inmate account.

On July 26, 2018, this Court approved the

Stipulation of Dismissal with prejudice and closed the case. ECF Nos. 34 and 35. w\s A-o ">W-e
r-eXo-.^

......
Over two years after the settlement was reached at the mediation, this case having been

fully resolved and all claims released, Plaintiff, without his counsel of record, filed a Motion to
Re-Open Civil Action on July 5, 2019. ECF No. 44. Plaintiff sought leave to reopen the case for
what he characterized as a breach of the settlement agreement and for ineffective assistance of
counsel. Plaintiff also filed a Motion for Leave to File Amended Complaint. ECF No. 46. In
these Motions, Plaintiff broadly alleged that Defendants violated his religious freedoms and the -ff

1 Following Plaintiffs pro se filing of various motions, on July 9,2019, Plaintiff s counsel filed a motion to
withdraw as counsel for Plaintiff. ECF No. 51. In support of their request, counsel explained that Plaintiff
demanded they take actions with which counsel had a fundamental disagreement, and that Plaintiff appeared to have
lost confidence in their representation, as he had filed multiple pro se motions with the Court, including twice
seeking to have counsel removed. The Court granted Plaintiffs counsel’s request to withdraw on July 9,2019, and
Plaintiff is now proceeding pro se. ECF No. 52.
,6,

,CC*

J h^

(

t

2

Case 2:16-cv-01786-MPK Document 80 Filed 01/16/20 Page 3 of 9

terms of the parties’ settlement agreement, but only specifically identified two instances of
purported breach: (1) Defendants’ placement of settlement funds into escrow; and (2) not
permitting Plaintiff to purchase his Yoruba Santeria beaded necklaces. ECF No. 53

10-11.

Plaintiff further claimed that, following the execution of the settlement agreement, “more
constitutional claims have arisen.” Id. at 12. Defendants filed a Brief in Opposition. ECF No.
57.

Upon review, the Court found that a settlement of all claims was reached, the settlement
agreement was fully executed by the parties and apparently complied with by the parties. ECF
No. 61 at 3. With respect to Plaintiffs request for leave to amend his Complaint, the Court
further found that Plaintiff had not established the requisite good cause for delay in moving to
amend his Complaint. Id The Court noted that, to the extent Plaintiff wished to bring a new 4
lawsuit alleging new claims, he was free to do so. Id
To the extent Plaintiff sought to. have the Court address any issues relative to the handling
of settlement funds, however, the Court granted Plaintiff permission to request that the Court
schedule a conference with Plaintiffs former counsel and defense counsel, with Plaintiff
participating by telephone. Id at 4. Thereafter, Plaintiff requested, and the Court granted, the
scheduling of a video status conference. ECF Nos. 63 and 64.
The Court held a status conference on November 12. 2019.2 Plaintiff and Defendants’
counsel participated in the conference, with Plaintiff participating remotely from SCI Forest.
ECF No. 68. Plaintiff participated by audio conference as a result of technical issues with the
video feed at SCI Forest. Id

2 The Court originally scheduled this status conference to take place on October 17,2019. Because the DOC facility
did not make Plaintiff available for this conference, the Court was required to reschedule this conference to
November 12,2019. ECF No. 65. At the Court’s request, Plaintiffs former counsel appeared as a courtesy on
October 17, 2019, but was unavailable attend on the rescheduled date.

3

Case 2:16-cv-01786-MPK Document 80 Filed 01/16/20 Page 4 of 9

During the conference, the Court addressed two issues that Plaintiff complained about in
relation to the previous settlement; that he had not received a consecrated Santeria beaded
necklace and his complaint relative to the payment of $6,500 in settlement proceeds.
First, as to the necklace, the settlement agreement expressly provided that Plaintiff was
“permitted to purchase a consecrated black and red beaded necklace and consecrated yellow
beaded necklace.” ECF No. 77 at 11:7-9. Plaintiff stated:
It’s a little complicated because when you’re initiated under the mysteries of
Santeria Orisha, which is a saint, the person who initiated you has to reconsecrate
the beads all over again, or a priest that is initiated under the same mysteries of
the same Orisha saint that I was initiated under. That’s probably where the
problem comes in because they can’t probably find a priest that because those
practices have to be strictly followed.
Id. at 7:4-11.
The Court asked Plaintiff to identify the name and address of the person who
could consecrate the beads.
PLAINTIFF: I can’t do that, right, but the person who initiated me under those
mysteries of Orisha Oshun said the beads were destroyed. They would have to
get another chicken and they’re not going to permit that on prison grounds.
They’re going to charge me another $2,500 just—the beads don t cost nothing,
the beads only cost like maybe $5.00, depending what store you buy it from, but
just the consecrated thing, they’re going to charge me $2,500 all over again.
THE COURT: Your issue is—the issue is not the cost of the beads themselves,
the issue is having them consecrated.
PLAINTIFF: Having to consecrate the beads, right.
Id. at 7:20-8:6.
Counsel for DOC reported that the chaplain had tried to assist Plaintiff by attempting to
locate the Santeria beads, but he was told by a number of vendors that there had to be a particular
type of Santeria and there were consecration issues. Id. at 10-11.

4

)'

Case 2:16-cv-01786-MPK Document 80 Filed 01/16/20 Page 5 of 9

Following hearing from Plaintiff and counsel for the DOC, the Court again informed
Plaintiff that the DOC had fully complied with the settlement agreement by permitting Plaintiff
to purchase a Santeria consecrated black and red beaded necklace and consecrated yellow beaded
necklace to be worn in his cell. Obviously, Plaintiff was free to contact vendors directly to ■V
purchase or consecrate the specific Santeria beaded necklace that Plaintiff wanted. Ifr at 11-13.
Thereafter, counsel for DOC offered assistance in facilitating the delivery of the consecrated ^
ccv) seoreijibi,') fee'There |'S a 12.9 $e>o£>e/ew
-ftufj-eJ4°
beads to Plaintiff at SCI Forest. Id at 13-14.
r"
dczjToywg mg Sci^-fexio^ beadedv wec.^laces.
Second, in terms of the payment of the $6,500 issued to Plaintiff as part of the settlement,
Plaintiff complained that the funds went into an escrow account and were not available in their
entirety for his. personal use.
Counsel for the DOC explained that DC ADM 005 expressly provides:
Yes. So, two matters. The first is Pennsylvania’s Act 84, which authorized the
Department of Corrections to issue a policy for the collection of court-ordered
restitution and fmes.
The department then duly did issue such a policy and the relevant section, this is
DC ADM 005, Collection of Inmate Debts Procedures Manual, Page 3-9(e)(l). It
says: When an inmate receives monetary damages or a settlement as a result of
prison conditions litigation—which is what happened here that are payable from
funds appropriated by general assembly or insurance policy purchased by the
Commonwealth—so here it was through funds appropriated by the general
assembly—the proceeds shall first be used to satisfy fines, costs and restitution
and any outstanding court ordered debt related to the criminal act. When an
award or settlement occurs, the chief counsel’s office will advise the Bureau of
Administration, the Bureau of Administration will arrange to deduct the full
amount owed from the proceeds.
And I have a case here Montanez [v.] the Secretary of Pennsylvania, Department
of Corrections, 773 F.3d 472 at Page 477 ([3d Cir.] 2014) which confirms that the
Department of Corrections is authorized to make policy about the disposition of
these funds to pay the debts.
Now, I think where the second issue comes, there’s another section of the policy
that says that 20 percent of any money an inmate gets to his inmate accounts, goes

5

Case 2:16-cv-01786-MPK Document 80 Filed 01/16/20 Page 6 of 9

to pay down the debts. That is just money that he happens to get, maybe family
gives it to him or he earns it in some way.
W wo
vjjv^re- AW \AAfcv\€>j
°
THE COURT: That is in his inmate account.

^efW\

‘ Id, at 16:19-17:22.
The Court explained to Plaintiff that in accordance with Act 84 and the DOC policy, DC
ADM 005, regarding collection of inmate debt procedures, that if he receives any lump sum
settlement being paid by state funds, those funds—in this case $6,500—must first go to courtordered restitutions, fines arid costs. Id, at 19.
Plaintiff indicated that he understood the applicable statute and policy, but he “would
like” to pay only 50% towards restitution. Id
At the conclusion of the conference, the Court clearly stated:
So, I scheduled the video conference so that we could have you and Mr.
Mazzocca in the Court’s presence because I wanted to clarify to you to make sure
it was clear with you in terms of the beads and what DOC was required to do.

4

In terms of the beads, DOC stands ready to permit you to purchase the
consecrated black and red beaded necklace, as well as the consecrated yellow
beaded necklace. We’ve talked about a couple different ways you can get it. But
it’s your responsibility to get the beads, and if you can get them, if you can get
them to Mr. Mazzocca, he has represented to the Court that he will make sure
they get to you.

4

Secondly, in terms of the 6,500, DOC, the defendants in this case, have paid the
6,500, and the issue is that you have substantial court-ordered restitutions, fines
and costs that get paid first because that money is coming to you from the state.
So, I wanted to get on the phone or on video with you and just be clear as to why
that is. So, at this point, as I ruled, DOC has not violated the settlement
agreement and release of all claims.
Id. at 20:14-21:8.
n.

LEGAL STANDARD
Plaintiff filed his Motion for Relief pursuant to Federal Rule of Civil Procedure 60(b).

This Rule provides:
6

.

Case 2:16-cv-01786-MPK Document 80 Filed 01/16/20 Page 7 of 9

(b) Grounds for Relief from a Final Judgment, Order, or Proceeding. On motion and
just terms, the court may relieve a party or its legal representative from a final judgment,
order, or proceeding for the following reasons:
(1) mistake, inadvertence, surprise, or excusable neglect;
(2) newly discovered evidence that, with reasonable diligence, could not have been
discovered in time to move for a new trial under Rule 59(b);
(3) fraud (whether previously called intrinsic or extrinsic), misrepresentation, or
misconduct by an opposing party;
(4) the judgment is void;
(5) the judgment has been satisfied, released, or discharged; it is based on an earlier
judgment that has been reversed or vacated; or applying it prospectively is no longer
equitable; or
(6) any other reason that justifies relief,
m.

DISCUSSION
A. Motion for Relief (ECF No. 73)
On December 9, 2019, Plaintiff filed the instant Motion for Relief pursuant to Federal

Rule of Civil Procedure 60(b). ECF No. 73. In his Motion, Plaintiff seeks relief from the
November 12,2019 status conference. Id. at 1. He argues that the conference was inappropriate
because, due to technical issues with the video feed, the conference was conducted by audio. Id.
He argues that he was prevented from providing his opposing argument as a result of audio *{"
deficiencies. Id.
Upon review, Plaintiffs Motion for Relief, ECF No. 73, is denied. As this court
previously held, and again explained to Plaintiff during the November 12, 2019 conference, this
matter is settled and concluded. Defendants have complied with the terms of the settlement
agreement. If Plaintiff seeks to assert new claims, he must file a new lawsuit. With respect to
any technical difficulties that occurred at the conference on November 12, 2019, these did not
result in Plaintiffs inability to participate by audio or affect the outcome. The transcript of the
7

Case 2:16-cv-01786-MPK Document 80 Filed 01/16/20 Page 8 of 9

conference reflects a thorough discussion with Plaintiff of the issues he raised relative to the
settlement. ECF No. 77. To the extent Plaintiff sought to read a statement into the record at the
conclusion of the conference, the Court permitted Plaintiff to submit this statement to the Court
for consideration. Id at 28:13-22. *4- °^V\^ '
B. Motion for Extension and Motion to Stay (ECF Nos. 74 and 75)
In addition to his Motion for Relief, Plaintiff has filed a Motion for Extension, ECF No.
74, requesting an extension of time to file a brief in support of his Motion for Relief. On January
10, 2020, Plaintiff filed the requested brief in support of his Motion for Relief. ECF No. 79.
Therefore, the Motion for Extension is denied as moot.
Plaintiff also filed a Motion to Stay, ECF No. 75, requesting the Court to “stay the
briefing time” to reflect that his brief and exhibits will not be filed until February 2020. Because
the brief has now been filed, the Motion to Stay is also denied as moot.
III.

CONCLUSION
For the foregoing reasons, Plaintiff s Motion for Relief, ECF No. 73, is denied as without

merit because Defendants have complied with the terms of the settlement. Plaintiffs Motion for
Extension and Motion to Stay, ECF Nos. 74 and 75, are denied as moot.
In accordance with the Magistrate Judges Act, 28 U.S.C. § 636(b)(1), and Rule 72.C.2 of
the Local Rules of Court, the parties are allowed fourteen (14) days from the date of this Order to
file an appeal to the District Judge which includes the basis for objection to this Order. Any
appeal is to be submitted to the Clerk of Court, United States District Court, 700 Grant Street,

8

Case 2:16-cv-01786-MPK Document 80 Filed 01/16/20 Page 9 of 9

Room 3110, Pittsburgh, PA 15219. Failure to file a timely appeal will constitute a waiver of any
appellate rights.

Dated: January j(?, 2020

SO ORDERED,

,LY
UNITED STATES MAGISTRATE JUDGE

cc:

Bienvenido Rodriguez
LQ7479
SCI FOREST
286 Woodland Drive
P.O. Box 307
Marienville, PA 16239

i

All counsel of record via CM/ECF

/

9

Ji

Case 2:16-cv-01786-NR-MPK Document 91 Filed 05/11/20 Page 1 of 5

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF PENNSYLVANIA
BIENVENIDO RODRIGUEZ,
2:16-cv-1786

Plaintiff,
v.

Hon. J. Nicholas Ranjan
REV ULLIKLEMM, et al.

Magistrate Judge Maureen P. Kelly

Defendants.
MEMORANDUM ORDER
This is a pro se prisoner civil rights action under 42 U.S.C. § 1983. The
case was settled in 2017 and, after a squabble concerning the language of the
settlement agreement, dismissed with prejudice in 2018. That was the end of
it until last year, when Plaintiff Bienvenido Rodriguez sought to set aside the
dismissal and re-open the case based on Defendants’ alleged breach of the
settlement agreement. Magistrate Judge Maureen P. Kelly denied the motion,
and held a video status conference with Mr. Rodriguez to explain that decision.
Mr. Rodriguez has since been trying to object or appeal in various ways.
First, he filed a motion under Fed. R. Civ. P. 60(b) seeking relief from
Judge Kelly’s decision, which Judge Kelly denied. Then, he noticed an appeal
to the Third Circuit from the “outcome” of the status conference. That appeal
was recently dismissed for lack of jursidction because, as the Third Circuit
explained, the status conference was not itself a “final” judgment or order.
Finally, and most recently, Mr. Rodriguez has filed objections to Judge Kelly’s
(1) denial of his Rule 60(b) motion; and (2) denial of his separate motion seeking
free copies of transcripts and other record documents for use in his “appeal.”
Those objections are now before this Court.

-1 -

Case 2:16-cv-01786-NR-MPK Document 91 Filed 05/11/20 Page 2 of 5

Before deciding the objections, some procedural housekeeping is
necessary, given the unusual posture of the case and Mr. Rodriguez’s recent
and unsuccessful attempt to appeal.
Upon review of the record, it is apparent that, until now, no “final,”
appealable order has yet been issued in this case. Judge Kelly’s orders denying
the motion to re-open and Rule 60(b) motion were not intended to be effective
“final” orders, because the parties did not consent to the jurisdiction of a
Magistrate Judge back when this case began.

[ECF 8]. Instead, from its

inception, this matter has only been referred to Judge Kelly for pre-trial
proceedings in accordance with the Magistrates Act, 28 U.S.C. § 636(b)(1). See
Campbell v. Secy for Dep’t of Corr., 370 F. Appx 5, 8 (11th Cir. 2010) ( If a
magistrate judge exercises jurisdiction pursuant to § 636(c) without the
parties’ consent, the resulting judgment is not final. . .”).
Nevertheless, it is clear what Judge Kelly has concluded with respect to
Mr. Rodriguez’s motions to re-open the case (that the case should not be re­
opened) and what Mr. Rodriguez wishes to do now (object to and then appeal
that decision). Thus, to provide clarity with respect to the orders at issue and
objections, as well as to Mr. Rodriguez’s appellate rights, the Court HEREBY
ORDERS as follows:
1.

The Court construes Mr. Rodriguez’s motion to re-open this case

[ECF 44] and motion for rehef from Judge Kelly’s denial of that motion [ECF
73] together as a single motion under Fed. R. Civ. P. 60(b) for rehef from the
previous dismissal of this action with prejudice. [ECF 34; ECF 35].
2.

The Court further finds that Judge Kelly’s previous orders [ECF

61; ECF 80] denying Mr. Rodriguez’s motion to re-open the case [ECF 44] and
denying his motion for relief from that decision [ECF 73] were not “final”
orders, but instead are reports and recommendations.
-2-

Case 2:16-cv-01786:NR-MPK Document 91 Filed 05/11/20 Page 3 of 5

3.

The Court reviews de novo Judge Kelly’s recommendation that the

it deny Mr. Rodriguez’s motions. 28 U.S.C. § 636(b)(1); see also Fed. R. Civ. P.
72(b) (“The district judge must determine de novo any part of the magistrate
judge’s disposition that has been properly objected to.”).
4.

Upon de novo consideration, the Court finds that Judge Kelly’s

reasoning was correct. Specifically, the Court agrees, based on its own review
of the record, with Judge Kelly’s determination that Defendants have
“complied with the terms of the settlement agreement.” [ECF 80 at p. 7]. Thus,
there is no basis for re-opening the case.
5.

What’s more, even if Defendants had breached the settlement

agreement, “mere breach of a settlement agreement generally does not state a
basis to set aside a judgment of dismissal under Rule 60(b) and reinstate the
underlying suit.” Guiuan v. Villaflor, 544 F. App’x 64, 67 n.2 (3d Cir. 2013).
Instead, a breach gives rise only “to a cause of action to enforce the settlemet
agreement.” Sawka v. Healtheast, Inc., 989 F.2d 138, 140 (3d Cir. 1993).
6.

As a result, the Court OVERRULES Mr. Rodriguez’s objections to

ECF 61 and ECF 80, ADOPTS Judge Kelly’s recommendations as its own
opinion, and DENIES Mr. Rodriguez’s motions to re-open the underlying case.
[ECF 44; ECF 73],
7.

To the extent Mr. Rodriguez' seeks to assert new constitutional

claims unrelated to his original case {e.g., claims based on conduct that
occurred after the case was settled), he may of course do so by filing a separate
lawsuit, subject to any applicable statute of limitations or administrative
exhaustion requirements.
8.
Kelly’s

Separately, Mr. Rodriguez has objected [ECF 87; ECF 88] to Judge
denial [ECF 82; ECF 85] of his motions seeking free copies of

transcripts and other record documents. [ECF 78; ECF 84]. When a party
-3-

Case 2:16-cv-01786-NR-MPK Document 91 Filed 05/11/20 Page 4 of 5

objects to a non:dispositive, pre-trial order issued by a magistrate judge, the
Court reviews findings of fact for “clear error” and legal conclusions “de novo.”
EEOC v. City of Long Branch, 866 F.3d 93, 99 (3d Cir. 2017).
9.

Upon de novo review, the Court determines that Judge Kelly

correctly denied the motions. Despite his indigent status, Mr. Rodriguez is not
entitled to free copies of court records. See Anderson v. Gillis, 236 F. App’x
738, 739 (3d Cir. 2007) (“The in forma pauperis statute does not grant the court
the authority to provide an indigent litigant with copies of ail the documents
in the record.”); Fantone v. Herbik, No. CIV.A. 11-0484, 2011 WL 7113312, at
*4 (W.D. Pa. Dec. 23, 2011) (“[Pfro se Plaintiffs are not entitled to free copies
of court documents.”) (Eddy, M.J.), report and recommendation adopted, No.
CIV.A. 11-0484, 2012 WL 273367 (W.D. Pa. Jan. 30, 2012).
10.

Moreover, there is only one circumstance where an indigent party

is entitled to a free transcript in a civil case. That is, under 28 U.S.C. § 753(f),
“an indigent party is entitled to a transcript at public expense only on appeal,
and only if the indigent litigant demonstrates that the appeal is not frivolous
and presents a substantial question.” Toaz v. Lane, No. 3:17-CV-01425, 2019
WL 1264880, at *2 (M.D. Pa. Mar. 19, 2019). Here, Mr. Rodriguez’s appeal has
been dismissed by the Third Circuit for lack of jurisdiction, and so Section 753
cannot apply.
11.

As a result, the Court OVERRULES Mr. Rodriguez’s objections

[ECF 87; ECF 88] to Judge Kelly’s orders [ECF 82; ECF 85] and DENIES his
motions. [ECF 78; ECF 84]. Of course, this denial is without prejudice to Mr.
Rodriguez seeking a free transcript under 28 U.S.C. § 753(f) in the event that
he appeals from this final order. To receive one, he would need to demonstrate
that his appeal is not “frivolous” and raises a “substantial question.” See Toaz,
No. 3:17-CV-01425, 2019 WL 1264880, at *2.
-4-

Case 2:16-cv-01786-NR-MPK Document 91 Filed 05/11/20 Page 5 of 5

12.

Having resolved all pending motions and objections, this case is

hereby DISMISSED with prejudice. The Clerk of Court is directed to mark
this case as CLOSED.
DATE: May 11, 2020

BY THE COURT:
/s/ J. Nicholas Ranian______
United States District Judge

-5-

AP

ALD-306

P.

NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 20-2029

BIENVENIDO RODRIGUEZ, JR., Appellant
v.
REV. ULLI KLEMM; LIEUTENANT BOONE; EDWARD NIEDERHISER,
Facility Chaplaincy Program Director at S.C.l. Graterford;
REV. KIRT ANDERSON, Facility Chaplaincy Program Director at S.C.l. Pine Grove

On Appeal from the United States District Court
for the Western District of Pennsylvania
(D.C. Civil No. 2-16-cv-01786)
District Judge: Honorable J. Nicholas Ranjan

Submitted for Possible Dismissal Pursuant to 28 U.S.C. § 1915(e)(2)(B), or
Summary Action Pursuant to Third Circuit LAR. 27.4 and I.O.P. 10.6
September 17, 2020
Before:

MCKEE, SHWARTZ, and PHIPPS, Circuit Judges
(Opinion filed: October 23, 2020)
. > vV ; i .J

•.C.L ih

OPINION*

* This disposition is not an opinion of the full Court and pursuant to I.O.P. 5.7 does not
constitute binding precedent.

PER CURIAM
Bienvenido Rodriguez is a Pennsylvania prisoner who was previously housed at
State Correctional Institution Pine Grove. In December 2016, Rodriguez, represented by
counsel, filed a complaint in the District Court claiming that the prison had violated his
First Amendment rights and the Religious Land Use and Institutionalized Persons Act by
failing to make accommodations for the practice of his religion, Yoruba Santeria. The
matter was referred to a Magistrate Judge. The parties agreed to mediation and settled
the dispute in April 2017. In July 2018, the Magistrate Judge approved the parties’
stipulation of dismissal and dismissed the case with prejudice. i
Approximately one year later, in July 2019, Rodriguez filed several pro se motions
seeking to reopen the case.2 The Magistrate Judge denied relief, concluding that all
claims had been settled and that the defendants had fully complied with the terms of the
agreement. The Magistrate Judge denied his request to amend the complaint and
explained that if Rodriguez wished to bring a new lawsuit al leging new claims, he was
free to do so. Rodriguez, dissatisfied with the Magistrate Judge’s ruling, requested a
videoconference. At the conference on November 12, 2019, Rodriquez complained that
he had not received a consecrated Santeria beaded necklace and had not been given
access to the settlement proceeds. The Magistrate Judge advised Rodriguez that the

i

The Magistrate Judge noted in her order that she would rfetain jurisdiction to resolve
issues related to the settlement agreement.
2 Rodriguez’s counsel of record then moved to withdraw, explaining that they had a
fundamental disagreement with Rodriguez’s demands to reopen the case. The Magistrate
Judge granted counsel’s request.
2

defendants had complied with the agreement by permitting him to purchase a Santeria
consecrated necklace, and that the defendants had properly placed the funds from the
settlement into an escrow account.3
IV

Rodriguez then filed a motion under Rule 60(b) of the Federal Rules of Civil
Procedure alleging that he had not been given a sufficient opportunity to present his
arguments at the conference, in part because he was forced to appear via audioconference
due to technical difficulties with the video connection. The Magistrate Judge rejected
this argument and denied relief. Rodriguez appealed the ruling to the District Court.
The District Court: (1) construed Rodriguez’s motion to reopen and Rule 60(b)
motion together as a single Rule 60(b) motion for relief from the Magistrate Judge’s July
2018 order dismissing the complaint with prejudice in light of the settlement agreement;
(2) construed the Magistrate Judge’s orders denying those motions as reports and
recommendations because no final order had yet been entered in the case; (3) upon de
novo review of Rodriguez’s Rule 60(b) motion, agreed with the Magistrate Judge that
Rodriguez failed to provide a basis for reopening; and (4) denied Rodriguez’s motion.
Rodriguez appealed.
We have jurisdiction pursuant to 28 U.S.C. § 1291.4 We review the District
Court’s decision not to reopen the case for abuse of discretion. See Reform Party of

3

Rodriguez attempted to appeal from the Minute Entry documenting the hearing, but this
Court dismissed the appeal for lack of jurisdiction. C.A. No. 19-3722 (order entered May
5, 2020).

4 We construe the District Court’s order as adopting the Magistrate Judge’s underlying
order dismissing the case pursuant to the parties’ stipulation of dismissal.
3
« . -.

Allegheny County v. Allegheny County Dep’t of Elections, 174 F.3d 305, 311 (3d Cir.
1999) (en banc).
We will summarily affirm the District Court’s order because no substantial
question is presented by this appeal. See Third Cir. LAR 27.4; I.Q.P. 10.6. We have
reviewed the record and agree with the District Court that Rodriguez’s motions do not
state a basis for reopening; as the District Court and Magistrate Judge explained, the
defendants fully complied with the terms of the settlement agreement. To the extent that
Rodriguez asserted that he was not given an opportunity to fully present his arguments at
the November 12, 2019 conference, we have reviewed the transcript and agree with the
Magistrate Judge that he was able to present his case.
i

Accordingly, we will summarily affirm.

V;

4

ALD-306
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

No. 20-2029

BIENVENIDO RODRIGUEZ, JR., Appellant
v.
REV. ULLI KLEMM; LIEUTENANT BOONE; EDWARD NIEDERHISER,
Facility Chaplaincy Program Director at S.C.I. Graterford;
REV. KIRT ANDERSON, Facility Chaplaincy Program Director at S.C.I. Pine Grove

On Appeal from the United States District Court
for the Western District of Pennsylvania
(D.C. Civil No. 2-16-cv-01786)
District Judge: Honorable J. Nicholas.Ranjan

Submitted for Possible Dismissal Pursuant to 28 U.S.C. § 1915(e)(2)(B), or
Summary Action Pursuant to Third Circuit LAR 27.4 and I.O.P. 10.6
September 17, 2020
Before:

MCKEE, SHWARTZ and PHIPPS. Circuit Judges

JUDGMENT

This cause came to be considered on the record from the United States District
Court for the Western District of Pennsylvania and was submitted for possible dismissal
due to a jurisdictional defect, possible dismissal pursuant to 28 U.S.C. § 1915(e)(2)(B), or

possible summary action pursuant to Third Circuit LAR 27.4 and I.O.P. 10.6 on [AA
September 17, 2020. On consideration whereof, it is now hereby
ORDERED and ADJUDGED by this Court that the judgment of the District Court
entered May 11, 2020, be and the same hereby is affirmed. All of the above in
accordance with the opinion of this Court.

ATTEST:
s/ Patricia S. Dodszuweit
Clerk
DATED: 23 October 2020

a ,a

<£ ; a :

APPfcNlt>HX_

^

Case 2:16-cv-01786-MPK Document 68 Filed 11/12/19 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF PENNSYLVANIA
BIENVENIDO RODRIGUEZ,
Plaintiff,
v.
REV ULLIKLEMM, LIEUTENANT
BOONE, EDWARD NIEDERHAUSER, and
REV KIRT ANDERSON,
Defendants.

)
)
)
)
)
)
)
)
)
)
)

Civil Action No. 16-1786
Magistrate Judge Maureen P. Kelly

HEARING MEMO
HEARING HELD: Video/audio Conference
DATE HEARING HELD: November 12, 2019
BEFORE: Magistrate Judge Maureen P. Kelly
Appearing for Plaintiff:
Bienvenido Rodriguez

Appearing for Defendant:
Timothy Mazzocca, Esquire

Hearing began at 2:14 p.m.

Hearing concluded at 3:08 p.m.

Stenographer: Julie Kienzle
OUTCOME:
1.

Conference conducted.

2.

Plaintiff informed that case has been resolved and Defendants have complied with terms

f

of settlement agreement. Plaintiff informed that any new claims must be brought in new lawsuit.
3.

Due to technical issues, conference conducted by audio conference call. Due to certain

audio issues at the end of the conference impacting transcription by the court reporter, Plaintiff
was permitted to submit his four page closing statement for filing on the docket and attachment
as part of the record to transcript.

i

>'■'

h:ioh

::: :ntian-ii:i

n -a

<:.z v-- r. ?:i

BXhEEBjrr A.

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF PENNSYLVANIA
BIENVENIDO RODRIOUEZ,
Plaintiff,

d

Civil, Action No. 16-1786
V;

REV. ULLI KLEMM, etal,
Defendants

,

.SETTLEMENT AGREEMENT AND RELEASE OF ALL O .AIMS
Tliis Settlement Agreement and Release of All Claims (“Settlement Agreement”
or “Release”), is entered into tliis 2b ' 3ay of April, 201$, by and between Plaintiff,
BIENVENIDO RODRIGUEZ, and Defendants ULRICH KLEMM, KIR'f ANDERSON,
.EDWARD NIEDERHISER, and RICHARD BOONE, arid their employe)', the
Pennsylvania Department of Corrections. With the intent to be legally bound, tile Parties
f.

hereby agree as follows:

I
;

I, BIENVENIDO RODRIOUEZ, the Plaintiff in this ’ease, for and in

f

■f

consideration off

•j

r

!•

- 1.) The payment Of the Sum of TEN' THOUSAND U.S, dollars' and QG/'eents

i

I
i

(510,000.00);
2) If five or more inmates intend to .participate,. Plaintiff will he permitted to attend a,

f

Staff-Supervised weekly Santeria religious service on Mondays at which time he

i

(and other inmates present) will be able to read,, either privately ot; aloud, and.
Watch/listen to religious printed and audiovisual material that has been pre­
approved by the Department of Corrections. Neither Plaintiff nor any other

,

tv vine. h:i:'h

• H/iam.'IV'i

>z ;v

jz

i- ^ /.rocr/.

;vci

.-1

i:

inmate present at such weekly services shall be permitted to preach, teach, lead, or

!

offer commentary in any way oil the religious material being presented. The
i

religioiis service shall.tiol exceed .60 minutes in length,

f
!■

3) If five or more .inmates, intend to participate, Plaintiff will, bo permitted to attend a

!.
i

yearly January 6 religious service, The inmates attending the feast may .purchase

I.

religiously appropriate food items for consumption at (he feast. The menu will be
determined through consultations with the dietary and religious departments and
the religious community at the facility Plaintiff is housed,
i

4.) Plaintiff will be provided with a catalog containing religious pictures of
saints/gods/orisbas for sale. He may then purchase such pictures provided they
are approved by the Department of Corrections,
i

5) At the weekly religious gatheiings and/or in his cell, Plaintiff will be permitted to-

/

utilize ail unlit cigar in a religiously appropriate manner. However, this shall not
I
f

be permitted at SCI-Pine Grove of any other prison designated as tobacco-free.. Tf
Plaintiff ’wishes to; utilize the cigar while at a tobacco-free institution, the
• Department of Corrections will transfer him to. another prison where tobacco use.
is permitted Any such transfer will be at the discretion, of the Department of
Corrections and to a prison of the Department of Corrections’ choosing, ft is
i!

Understood that any such transfer may not be immediate and further transfers may

r

occur for penological reasons. After such a. transfer*. Plaintiff and any inmates
who wish to participate (provided there arc a minimum of five inmates who desire
to. participate) will be allowed to light the cigar in an outdoor ceremony ..
6) The Department of Corrections will provide information currently in its

?•

2
>

>v ?;-ir,D:

: n?ian?h:i •

i.z ,i-;

i /. ?oc zr -.1 y >]

!
)
l

possession oil schoiaf'S/outside practitioners of’Santem to Plaintiff to assist
<

1
1

Plaintiff in obtaining a^voliinteer for Santeria religious services, to the extent it is

L

inpossessionofsiich information.
7) Subject to pre-approval by the Department of Corrections; Plaintiff will be
;

permitted -to purchase a copy of the book Santeria the Religion, by Migene
Gonzalez Wippler that he has described as his “Bible”,
8) Plaintiff is permitted to purchase a consecrated black anti red beaded necklace and

1

;•

:a consecrated yellow beaded necklace, .Plaintiff may use and/or wear both
necklaces inside of his cel}, Plaintiff is not permitted to use and/or Wear either

!

necklace outside of his cell,, if Plaintiff takes either necklace outside of his cell,
he may be issued a misconduct and may have the necklaces confiscated at the
!

discretion of the Department of Corrections,
The items enumerated in numbers 1) through 8) represent both the liquidation in full of
all Plaintiffs claims, against Defendants as described in the Complaint filed at Civil
■

Action No; 16-1786. in the United, States Distijcf Court for the Western District of
Pennsylvania, and the liquidationm full of all claims for costs of the attendant litigation.
PLAINTIEE DOES HEREBY remise, release and forever discharge Defendants
ULRICH KLEMM, KIRT ANDERSON, HOWARD NIEDERIIISER, and RICHARD.
• BOONE and their employer,, the Pennsylvania Department of Corrections, its Officers,
officials, employees, agentSs representatives and assigns, of and from;
all manner of claims, actions, causes of action,, suits in law or equity,
debts,, contracts, judgments, and demands of any kind whatsoever (including, for
attorneys5 fees arid costs of suit), both known and unknown., foreseen and

3

>■: htioh :::: ruiAM ni ri

!.i ;i>;<: r:i /.rot z!.

;i wa

\

unforeseen, which 1 now .have pertaining to or arising out of'my incarceration
i;

i

with the Pennsylvania Department of Corrections against' ULRICH KLF.MM,
KIRT ANDERSON, EDWARD NIEDERHISER, and. RICHARD BOONE,
including,, without limitation, ail claims relating: to or arising out of all incidents,
events and allegations that were or could have been asserted in the civil action

i

II
i:

filed, by me at Civil Action No. 16-1786 in the United Stales:District Court for the
Western District of Pennsylvania, and any other related claims by me that have
been Or could have been asserted in any internal. Or administrative proceeding, or
other- civil action against the Defendants or the Commonwealth of Pennsylvania
;

or any of its agencies and/or its officers, employees or agents related to the

1-

practice Of the Santeria religion.
, IT IS JFtfRTHER ACKNOWLEDGED, UNDERSTOOD AM D AGREED THAT:
1.

The settlement sum shall be payable m follows: A check in the amount of

.!

t

S6.500.00 to be deposited in Plaintiff s inmate account; a check(S) in tire amount of
!£3.500;00 made out to the Pennsylvania Institutional Law Project.
■■

2.

It is agreed and understood that -Plaintiff is solely responsible for the: tax
i

.liabilities and consequences, i f any, related to his. receipt of settlement raonies -pursuant to
this Release, and Defendants shall bear no responsibility tor such Liability of
consequences, if any.
3.

t

This Settlement Agreement: and Release is in compromise of a disputed:

claim or claims embodied-in the aforesaid complaint filed, by Plaintiff,, and j$: entered into
1 to avoid further protracted litigation of the mi alter. Neither this Agreement nor. the
payment being made hereunder shall be construed as an admission of liability or

4

!

Vi' :-'ir,D:'hjiam'ii:i ■■■■■:,

lc

;z

Arocc/. ;v«ii

wrongdoing.on the pa#.ofthe Defendants of tire Defendants’ employer, the Pennsylvania
Department of Corrections, ft,s officers or employees, such liability or wrongdoing being
expressly denied.
4,
>.

f}

;•.

Plaintiff agrees, upon receipt of payment pursuant to this Settlement

Agreement, promptly to dismiss with prejudice the Civil Action filed at No. 16-17S6 iiv
the United States District Court for the Western District of Pennsylvania,

\

5.

It is further agreed: and Understood, that if any term, condition or provision

!
!

of this Release Shall be determined by a court of competent jurisdiction to be void or
'i

invalid, then only such term, conditior! or provision determined to Be Void or invalid shall
be stricken from the Release, and the remainder of the Release shall continue in full force
and effect ln all other respects, this Release shall be interpreted' in accordance with the
laws of the Commonwealth of Pennsylvania
6,

i

It is acknowledged arid agreed that this Agreement, with due regard lor the

pertinent provisions of the Commonwealth Attorneys Act, is not, cannot and shall not be
i

construed to be a Consent decree.

The undertakings and promises herein by the
:

Defendants are not specifically enforceable as a consent decree in the United States
District Court for the Western District of Pennsylvania.
IT IS ACKNOWLEDGED, UNDERSTOOD AND AGREED, that this
SETTLEMENT AGREEMENT AND RELEASE OF ALL CLAIMS contains the
entire agreement between BIENVENTDO RODRIGUEZ, and the Defendants in this,
action, and its terms arecontractuul and no mere recital,
I, Bienvcnido Rodriguez, further state that I haVc read carefully the foregoing
document, know and understand: its contents and sign the same as my free and voluntary

,i1

5

;
1

;

\

"Hi1 z-r.fX'dooH ::gin3Ani;?j ■*~;i /z

v:

-d-h

i*

act with the intent to be bound by its terms, and that I have conferred with counsel,
concerning its terms and the consequences of rny signature.

!
i

IN WITNESS HEREOF AND INTENDING TO BE LEGALLY BOUND, tire
undersigned: have approved and executed this Settlement Agreement and Release eh the
;
i

dates set forth opposite, their respective;signatures below.
i(

CAVEAT; PLEASE READ BEFORE AFFIXING YOUR SIGNATU RE.
s'

-?
■n.

w

i

Dajfe/

Bienvenidp Rodriguez . TIr>
Plaintiff

;
i

fxin/

L'//ao/^/6
Date

i

Alexandra T. ^aorgan -Kurtz.
Counsel fqr Plaintiff
S~)
V?

I

i

/M-Qjj

Christy Patricia Foreman 1
Counsel for Plaintiff -

-1
//
-:-n
/J

I

r

*

Date

J-*—//^i
Timothy Mazzocca y
Counsel for Defendant

V

p

6

(

